                                              EMPLOYMENT STANDARDS
                                              ADMINISTRATION



Office of Inspector General—Office of Audit




                                              SPECIAL REPORT RELATING TO THE
                                              FEDERAL EMPLOYEES’ COMPENSATION ACT
                                              SPECIAL BENEFIT FUND
                                              September 30, 2009




                                               This report was prepared by KPMG LLP, under contract to the U.S.
                                               Department of Labor, Office of Inspector General, and by acceptance, it
                                               becomes a report of the Office of Inspector General.


                                                                                 __________________________
                                                                                 U.S. Department of Labor
                                                                                 Assistant Inspector General for Audit




                                                                       Date Issued: October 29, 2009
                                                                    Report Number: 22-10-001-04-431
                                                                            Special Report Relating to the
                                                  Federal Employees’ Compensation Act Special Benefit Fund

Table of Contents
Assistant Inspector General for Audit’s Memorandum……………………… .......................... 3 


1. 	   A.    Independent Auditors' Report on the Schedule of Actuarial Liability, Net 

              Intra-Governmental Accounts Receivable and Benefit Expense........................ 5 


       B. 	 Schedule of Actuarial Liability, Net Intra-Governmental Accounts 

             Receivable and Benefit Expense ......................................................................... 11 


       C. 	 Notes to the Schedule of Actuarial Liability, Net Intra-Governmental 

             Accounts Receivable and Benefit Expense........................................................ 13 


2. 	   A.    Independent Accountants' Report on Applying Agreed-Upon 

              Procedures............................................................................................................. 17 


       B.    Schedules
                	                     


               Schedule of Actuarial Liability by Agency......................................................... 19 


               Schedule of Net Intra-Governmental Accounts Receivable by Agency.......... 21 


               Schedule of Benefit Expense by Agency........................................................... 23 


       C. 	 Agreed-Upon Procedures and Results 


               Actuarial Liability ................................................................................................. 25 


               Net Intra-Governmental Accounts Receivable .................................................. 33 


               Benefit Expense ................................................................................................... 39 


Appendix 

               Acronyms and Abbreviations ............................................................................. 45 





Prepared by KPMG LLP, for the                                                                                                         1
U.S. Department of Labor—Office of Inspector General
Report Number: 22-10-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund




                THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK 





2                                                             Prepared by KPMG LLP, for the
                                        U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-10-001-04-431
                                                              Special Report Relating to the
                                    Federal Employees’ Compensation Act Special Benefit Fund

U.S. Department of Labor	                         Office of Inspector General
                                                  Washington, DC 20210




                  Assistant Inspector General for Audit’s Memorandum


MEMORANDUM FOR: 	           FEDERAL AGENCIES WITH RESPONSIBILITIES
                            FOR THE FEDERAL EMPLOYEES’ COMPENSATION
                            ACT PROGRAM



FROM:         	             ELLIOT P. LEWIS
                            Assistant Inspector General for Audit

SUBJECT:	                   Special Report Relating to the Federal Employees’
                            Compensation Act Special Benefit Fund – FY 2009
                            Report No. 22-10-001-04-431

Attached is the special report on the Federal Employees’ Compensation Act (FECA)
Special Benefit Fund (the Fund) that was prepared to assist in the audit of your
agency’s annual financial statements. The U.S. Department of Labor, Employment
Standards Administration, Office of Workers’ Compensation Programs (OWCP)
administers the Fund, and the DOL Office of Inspector General is responsible for
auditing the Fund.

The Office of Inspector General contracted with the independent certified public
accounting firm of KPMG LLP (KPMG) to prepare the report on the Fund as of and for
the year ended September 30, 2009. This special report consists of two reports. The
first report is an opinion on the Schedule of Actuarial Liability, Net Intra-Governmental
Accounts Receivable, and Benefit Expense of the Fund (the Schedule) as of and for the
year ended September 30, 2009. KPMG issued an unqualified opinion on the
Schedule. In connection with this audit, KPMG considered DOL’s internal control over
financial reporting and tested DOL’s compliance with laws and regulations related to the
Fund. Their consideration of internal control over financial reporting disclosed a
significant deficiency titled Controls Over the Financial Reporting Process Need
Improvement. This significant deficiency, which is a repeat finding from fiscal year
2008, is not considered to be a material weakness. Their testing of compliance with
laws and regulations disclosed no instances of noncompliance or other matters that are
required to be reported under Government Auditing Standards.




Prepared by KPMG LLP, for the                                                             3
U.S. Department of Labor—Office of Inspector General
Report Number: 22-10-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

The second report is an agreed-upon procedures (AUP) report on the schedules of
Actuarial Liability, Net Intra-Governmental Accounts Receivable, and Benefit Expense
of the Fund by agency as of and for the year ended September 30, 2009. This report
includes a description of the procedures performed and the results of those procedures.
The sufficiency of the procedures referred to in the AUP is solely the responsibility of
the parties specified in this report. Consequently, neither the OIG nor KPMG makes
any representations regarding the sufficiency of the procedures. Because the AUP
performed did not constitute an examination, KPMG did not express an opinion on any
elements, accounts, or items as they pertained to the AUP report. Furthermore, neither
the OIG nor KPMG has any obligation to perform any procedures beyond those listed in
the attached AUP report.

KPMG is responsible for the attached reports dated October 29, 2009, and the
conclusions expressed in the reports. We reviewed KPMG’s reports and related
documentation and inquired of their representatives. Our review, as differentiated from
an audit in accordance with Government Auditing Standards, was not intended to
enable us to express, and we do not express opinions on: the Actuarial Liability, Net
Intra-Governmental Accounts Receivable, and Benefit Expense of the Fund as of and
for the year ended September 30, 2009; or the AUP report on the schedules of Actuarial
Liability, Net Intra-Governmental Accounts Receivable, and Benefit Expense by agency
as of and for the year ended September 30, 2009. Our review disclosed no instances
where KPMG did not comply, in all material respects, with Government Auditing
Standards.

If you have any questions or comments, please send your questions or comments via
regular mail, facsimile, or e-mail to:


              Joseph L. Donovan          

              Audit Director, Financial Statement Audits 

              U.S. Department of Labor 

              Office of Inspector General 

              200 Constitution Ave., N.W., Room S-5512 

              Washington, D.C. 20210          


              Fax: (202) 693-5169 

              e-mail: Donovan.Joseph@oig.dol.gov             





4                                                             Prepared by KPMG LLP, for the
                                        U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-10-001-04-431
                                                                  Special Report Relating to the
                                        Federal Employees’ Compensation Act Special Benefit Fund



                           KPMG LLP
                           2001 M Street, NW
                           Washington, DC 20036




                                                SECTION 1A 

                       Independent Auditors’ Report on the 

               Schedule of Actuarial Liability, Net Intra-Governmental 

                    Accounts Receivable, and Benefit Expense


Shelby Hallmark, Acting Assistant Secretary 

Employment Standards Administration, U.S. Department of Labor 

Government Accountability Office, Office of Management and Budget, 

and Agencies Specified in Section 2B of this Report: 


We have audited the accompanying Schedule of Actuarial Liability and Net Intra-

Governmental Accounts Receivable as of September 30, 2009, and Benefit Expense for

the year ended September 30, 2009, of the U.S. Department of Labor’s (DOL) Federal 

Employees’ Compensation Act Special Benefit Fund (the Schedule). The objective of 

our audit was to express an opinion on the fair presentation of DOL’s schedules. In 

connection with our audit, we also considered DOL’s internal control over financial

reporting related to the Schedule and tested DOL’s compliance with certain provisions 

of applicable laws and regulations that could have a direct and material effect on the 

Schedule. 

SUMMARY
As stated in our Opinion On The Schedule section of this report, we concluded that
DOL’s Schedule as of and for the year ended September 30, 2009, is presented fairly,
in all material respects, in conformity with U.S. generally accepted accounting
principles.
Our consideration of internal control over financial reporting resulted in the identification
of a significant deficiency related to weaknesses in control over financial reporting. We
did not identify any deficiencies in internal control over financial reporting that we
consider to be material weaknesses as defined in the Internal Control Over Financial
Reporting section of this report.
The results of our tests of compliance with certain provisions of laws and regulations
disclosed no instances of noncompliance or other matters that are required to be
reported herein under Government Auditing Standards.


                                   KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                   member firm of KPMG International, a Swiss cooperative.




Prepared by KPMG LLP, for the                                                                    5
U.S. Department of Labor—Office of Inspector General
Report Number: 22-10-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund




The following sections discuss our opinion on DOL’s Schedule, our consideration of
DOL’s internal control over financial reporting, our tests of DOL’s compliance with
certain provisions of applicable laws and regulations, and management’s and our
responsibilities.
OPINION ON THE SCHEDULE
We have audited the accompanying Schedule of Actuarial Liability and Net Intra-
Governmental Accounts Receivable as of September 30, 2009, and Benefit Expense for
the year ended September 30, 2009, of the U.S. Department of Labor’s Federal
Employees’ Compensation Act Special Benefit Fund.
In our opinion, the Schedule referred to above presents fairly, in all material respects,
the actuarial liability and net intra-governmental accounts receivable as of September
30, 2009, and benefit expense for the year ended September 30, 2009, in conformity
with U.S. generally accepted accounting principles.
INTERNAL CONTROL OVER FINANCIAL REPORTING
Our consideration of the internal control over financial reporting was for the limited
purpose described in the Responsibilities section of this report and was not designed to
identify all deficiencies in the internal control over financial reporting that might be
deficiencies, significant deficiencies, or material weaknesses.
A deficiency in internal control exists when the design or operation of a control does not
allow management or employees, in the normal course of performing their assigned
functions, to prevent, or detect and correct misstatements on a timely basis. A
significant deficiency is a deficiency, or a combination of deficiencies, in internal control
that is less severe than a material weakness, yet important enough to merit attention by
those charged with governance. A material weakness is a deficiency, or combination of
deficiencies, in internal control, such that there is a reasonable possibility that a material
misstatement of DOL’s Schedule will not be prevented, or detected and corrected on a
timely basis.
In our audit, we did not identify any deficiencies in internal control over financial
reporting that we consider to be material weaknesses as defined above. However, we
identified a deficiency in internal control over financial reporting that we consider to be a
significant deficiency that is described in Exhibit I. Exhibit I also provides the status of
the prior year significant deficiency.
COMPLIANCE AND OTHER MATTERS
The results of our tests of compliance as described in the Responsibilities section of this
report disclosed no instances of noncompliance or other matters that are required to be
reported herein under Government Auditing Standards.



6                                                              Prepared by KPMG LLP, for the
                                         U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 22-10-001-04-431
                                                              Special Report Relating to the
                                    Federal Employees’ Compensation Act Special Benefit Fund




RESPONSIBILITIES
Management’s Responsibilities. Management is responsible for the Schedule;
establishing and maintaining effective internal control; and complying with laws and
regulations applicable to the Schedule.
Auditors’ Responsibilities. Our responsibility is to express an opinion on the Schedule
based on our audit. We conducted our audit in accordance with auditing standards
generally accepted in the United States of America and the standards applicable to
financial audits contained in Government Auditing Standards, issued by the Comptroller
General of the United States. Those standards require that we plan and perform the
audit to obtain reasonable assurance about whether the Schedule is free of material
misstatement. An audit includes consideration of internal control over financial reporting
as a basis for designing audit procedures that are appropriate in the circumstances, but
not for the purpose of expressing an opinion on the effectiveness of DOL’s internal
control over financial reporting. Accordingly, we express no such opinion.
An audit also includes:
•	   Examining, on a test basis, evidence supporting the amounts and disclosures in
     the Schedule;
•	   Assessing the accounting principles used and significant estimates made by
     management; and
•	   Evaluating the overall Schedule presentation.
We believe that our audit provides a reasonable basis for our opinion.
In planning and performing our audit, we considered DOL’s internal control over
financial reporting by obtaining an understanding of DOL’s internal control, determining
whether internal controls had been placed in operation, assessing control risk, and
performing tests of controls as a basis for designing our auditing procedures for the
purpose of expressing our opinion on the Schedule. The objective of our audit was not
to express an opinion on the effectiveness of DOL’s internal control over financial
reporting. Accordingly, we do not express an opinion on the effectiveness of DOL’s
internal control over financial reporting.
As part of obtaining reasonable assurance about whether the Schedule is free of
material misstatement, we performed tests of DOL’s compliance with certain provisions
of laws and regulations, noncompliance with which could have a direct and material
effect on the determination of Schedule amounts. We limited our tests of compliance to
the provisions described in the preceding sentence, and we did not test compliance with
all laws and regulations applicable to the DOL Schedule. However, providing an opinion
on compliance with laws and regulations was not an objective of our audit and,
accordingly, we do not express such an opinion.

Prepared by KPMG LLP, for the                                                             7
U.S. Department of Labor—Office of Inspector General
Report Number: 22-10-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund




DOL’s response to the finding identified in our audit is presented in Exhibit I. We did not
audit DOL’s response and, accordingly, we express no opinion on it.
This report is intended solely for the information and use of the U.S. Department of
Labor, the U.S. Government Accountability Office, Office of Management and Budget,
the U.S. Congress, and those Federal agencies with responsibility for the FECA
program and is not intended to be and should not be used by anyone other than these
specified parties.



October 29, 2009




8                                                             Prepared by KPMG LLP, for the
                                        U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-10-001-04-431
                                                              Special Report Relating to the
                                    Federal Employees’ Compensation Act Special Benefit Fund

                                                                                     Exhibit I
Controls Over the Financial Reporting Process Need Improvement

During our FY 2008 audit, we noted deficiencies in the internal control over financial
reporting related to the preparation of the FECA Schedule of Actuarial Liability, Net
Intra-Governmental Accounts Receivable, and Benefit Expense (the Schedule) that
resulted in a number of errors in the draft Schedule that was later corrected by
management.

We recommended that management establish written policies and procedures that
would provide those responsible for preparing and reviewing the Schedule with detailed
guidance to facilitate the preparing and review of the Schedule and mitigate the risk of
misstatements in the future. Furthermore, the policies and procedures should include
comparing the balances reported in the Schedule to the DOL general ledger and
information posted on the DOL website.

During our FY 2009 audit, we continued to note deficiencies in the internal control over
financial reporting related to the preparation of the Schedule that resulted in a number
of errors in the draft Schedule and the detailed schedules by agency, including the
following:

•	 Net intra-governmental accounts receivable was understated by approximately $88
   million as of September 30, 2009. This amount is related to accrued benefits for
   benefit payments made as of September 30, 2009, but not yet billed to customer
   agencies that was reported in the general ledger but inadvertently excluded from the
   Schedule.

•	 Although the total actuarial liability was properly reported in the Schedule as of
   September 30, 2009, the actuarial liability reported in the detailed schedule by
   agency for a number of Federal agencies was misstated by approximately $55
   million due to a clerical error with no effect on the total actuarial liability reported in
   the detailed schedule by agency as the errors offset one another.

The above errors were subsequently corrected by management in the final schedules.

Per GAO’s Standards of Internal Control in the Federal Government, “Internal control
should generally be designed to assure that ongoing monitoring occurs in the course of
normal operations. It is performed continually and is ingrained in the agency’s
operations. It includes regular management and supervisory activities, comparisons,
reconciliations, and other actions people take in performing their duties.”




Prepared by KPMG LLP, for the                                                               9
U.S. Department of Labor—Office of Inspector General
Report Number: 22-10-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

OMB Circular No. A-123, Management’s Responsibility for Internal Control, states that
“The agency head must establish controls that reasonably ensure that obligations and
costs are in compliance with applicable laws; funds, property, and other assets are
safeguarded against waste, loss, unauthorized use, or misappropriation; and revenues
and expenditures applicable to agency operations are properly recorded and accounted
for to permit the preparation of accounts and reliable financial and statistical reports . . .”

Although management developed guidance for preparing the schedules to be used by
supervisors during their review, the errors noted above reoccurred in FY 2009 because
the Branch of Accounting and Financial Systems’ (BAFS) supervisors did not follow the
procedures in the guidance and perform a sufficiently detailed review of the schedules
to ensure that misstatements and errors are detected and corrected. This increases the
risk of misstating the year-end Schedule. In addition, this could result in delays in
issuing the year-end FECA special report.

Because BAFS’ supervisors did not perform a sufficiently detailed review of the
schedules, we consider the recommendation we made in FY 2008 unresolved and
open. To close this recommendation, management should ensure that BAFS’
supervisors follow the established guidance and perform a more detailed review of the
schedules. We also recommend that BAFS establish policies and procedures to
prepare and review the Schedule quarterly instead of just at fiscal year end. Preparing
and reviewing the Schedule quarterly will help ensure that the Schedule is prepared
accurately and timely at fiscal year end in the future.

Management’s Response:

Management concurs with the recommendation. Procedures will be updated by
December 31, 2009, to address the review process for quarterly preparation of the
schedules.

Auditors’ Conclusion:

This recommendation is considered resolved and open. FY 2010 audit procedures will
determine whether this recommendation has been adequately addressed and can be
considered closed.




10                                                              Prepared by KPMG LLP, for the
                                          U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 22-10-001-04-431
                                                               Special Report Relating to the
                                     Federal Employees’ Compensation Act Special Benefit Fund

                                         SECTION 1B
                            U.S. Department of Labor
                      Employment Standards Administration 

            Federal Employees’ Compensation Act Special Benefit Fund 

           Schedule of Actuarial Liability and Net Intra-Governmental 

       Accounts Receivable as of September 30, 2009, and Benefit Expense

                    For the Year Ended September 30, 2009 


                                   (dollars in thousands)

       Actuarial Liability                                               $ 26,953,704


       Net Intra-Governmental Accounts Receivable                        $   5,036,155


       Benefit Expense                                                   $   2,094,044




                             See accompanying notes to the Schedule.


Prepared by KPMG LLP, for the                                                             11
U.S. Department of Labor—Office of Inspector General
Report Number: 22-10-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund




                THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK 





12                                                            Prepared by KPMG LLP, for the
                                        U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-10-001-04-431
                                                              Special Report Relating to the
                                    Federal Employees’ Compensation Act Special Benefit Fund

                                       SECTION 1C 

      Notes to the Schedule of Actuarial Liability and Net Intra-Governmental 

       Accounts Receivable as of September 30, 2009, and Benefit Expense

                     For the Year Ended September 30, 2009 


1.     Significant Accounting Policies

       a.   Basis of Presentation

       The Schedule of Actuarial Liability and Net Intra-Governmental Accounts
       Receivable as of September 30, 2009, and Benefit Expense for the year ended
       September 30, 2009, of the U.S. Department of Labor’s Federal Employees’
       Compensation Act Special Benefit Fund (the Schedule) has been prepared to
       report the actuarial liability, net intra-governmental accounts receivable, and
       benefit expense of the U.S. Department of Labor’s (DOL) Federal Employees'
       Compensation Act (FECA) Special Benefit Fund (the Special Benefit Fund). The
       Special Benefit Fund was established by the Federal Employees' Compensation
       Act to provide for the financial needs resulting from compensation and medical
       benefits authorized under the Act.           The DOL, Employment Standards
       Administration (ESA), Office of Workers’ Compensation Programs (OWCP) is
       charged with the responsibility of operating the Special Benefit Fund under the
       provisions of the Act. The Schedule has been prepared from the accounting
       records of the Special Benefit Fund.

       The actuarial liability, net intra-governmental accounts receivable, and benefit
       expense of the Special Benefit Fund are considered specified accounts for the
       purpose of this Schedule. ESA OWCP is responsible for providing this
       information to the CFO Act agencies and other specified agencies to support and
       prepare their respective financial statements. Effective November 8, 2009, the
       ESA will be abolished and OWCP will report directly to the Office of the Secretary
       of Labor.

       The actuarial liability is an accrued estimate of future workers' compensation
       benefits as of September 30, 2009. Historical benefits paid, inflation and interest
       rate assumptions, and other economic factors are applied to the actuarial model
       that calculates the liability estimate. The net intra-governmental accounts
       receivable is the amount due from Federal agencies for benefit payments paid to
       or on behalf of employees of the employing agency as of September 30, 2009.
       The net intra-governmental accounts receivable includes amounts which were
       billed to the employing agencies through June 30, 2009, but not paid as of
       September 30, 2009, including prior years, if applicable, plus the accrued
       receivable for benefit payments not yet billed for the period of July 1, 2009,
       through September 30, 2009, less credits due from the public. Benefit expense
                                                                            (continued)
Prepared by KPMG LLP, for the                                                            13
U.S. Department of Labor—Office of Inspector General
Report Number: 22-10-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund



                                      SECTION 1C 

      Notes to the Schedule of Actuarial Liability and Net Intra-Governmental 

       Accounts Receivable as of September 30, 2009, and Benefit Expense

                     For the Year Ended September 30, 2009 


       consists of benefits paid and accrued for the period from October 1, 2008, to
       September 30, 2009, plus the net change in the actuarial liability for the fiscal
       year.

       Benefit payments are intended to provide income and medical cost protection to
       covered Federal civilian employees injured on the job, employees who have
       incurred a work-related occupational disease, and beneficiaries of employees
       whose death is attributable to job-related injury or occupational disease.

b.     Basis of Accounting

       The Schedule has been prepared on the accrual basis of accounting in
       conformity with U.S. generally accepted accounting principles.

       An estimate of claims that have been incurred but not reported are included in
       the actuarial liability. Therefore, the actuarial liability represents the estimated
       present value of future compensation and medical payments based upon
       approved claims, plus a component for incurred but not reported claims.

2.     Actuarial Liability (Future Workers’ Compensation Benefits)

       The Special Benefit Fund was established under the authority of the Federal
       Employees' Compensation Act to provide income and medical cost protection to
       covered Federal civilian employees injured on the job, employees who have
       incurred a work-related occupational disease, and beneficiaries of employees
       whose death is attributable to a job-related injury or occupational disease. The
       fund is reimbursed by other Federal agencies for the FECA benefit payments
       made on behalf of their workers.

       The actuarial liability for future workers’ compensation of $26,953,704 thousand
       reported on the Schedule includes the expected liability for death, disability,
       medical, and miscellaneous costs for approved cases as well as an estimate for
       those cases incurred but not reported. The liability is determined using a method
       that utilizes historical benefit payment patterns related to a specific incurred
       period to predict the ultimate payments related to that period. The actuarial
       model uses a Paid Loss Development Method by agency, by defined agency
       groups, and in total using inflation rate assumptions on both past and future
       indemnity and medical benefits to adjust past data and project forward.
                                                                            (continued)
14                                                            Prepared by KPMG LLP, for the
                                        U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-10-001-04-431
                                                              Special Report Relating to the
                                    Federal Employees’ Compensation Act Special Benefit Fund



                                           SECTION 1C
      Notes to the Schedule of Actuarial Liability and Net Intra-Governmental 

       Accounts Receivable as of September 30, 2009, and Benefit Expense

                     For the Year Ended September 30, 2009 


       Consistent with past practice and as allowed under U.S. generally accepted
       accounting principles, these projected annual benefit payments have been
       discounted to present value using the Office of Management and Budget's (OMB)
       economic assumptions for 10-year Treasury notes and bonds. The interest rate
       assumptions utilized for discounting was 4.22% in year 1 and 4.72% in
       subsequent years.

       To provide more specifically for the effects of inflation on the liability for future
       workers' compensation benefits, wage inflation factors (cost of living allowance or
       COLA), and medical inflation factors (consumer price index-medical or CPI-Med)
       are applied to the calculation of projected future benefits. These factors are also
       used to adjust the historical payments to current year constant dollars. The
       liability is determined assuming an annual payment at mid-year.

       The compensation COLA and the CPI-Med used in the model's calculation of
       estimates were as follows:

                           FY            COLA          CPI-Med

                          2010          0.47%          3.42%
                          2011          1.40%          3.29%
                          2012          1.50.%         3.48%
                          2013          1.80%          3.71%
                          2014          2.00%          3.71%
       The medical inflation rates presented represent an average of published
       quarterly rates covering the benefit payment fiscal year. The compensation
       factors presented are the blended rates used by the model rather than the
       published August 25, 2009, FECA-COLA factor from which the blended rates are
       derived.

3.     Net Intra-Governmental Accounts Receivable

       Net intra-governmental accounts receivable balance of $5,036,155 thousand
       represents the total of the amounts billed to Federal agencies through June 30,
       2009, that had not been paid as of September 30, 2009, of $4,226,465 thousand,
       including prior year’s amounts billed, if applicable; plus an accrued receivable

                                                                             (continued)


Prepared by KPMG LLP, for the                                                              15
U.S. Department of Labor—Office of Inspector General
Report Number: 22-10-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund



                                           SECTION 1C
      Notes to the Schedule of Actuarial Liability and Net Intra-Governmental 

       Accounts Receivable as of September 30, 2009, and Benefit Expense

                     For the Year Ended September 30, 2009 


       for benefit payments not yet billed for the period July 1, 2009, through September
       30, 2009, of $835,857 thousand, less applicable credits due from the Public of
       $26,167 thousand.       The FECA Special Benefit Fund also receives an
       appropriation for special cases and older cases where employing agencies are
       not charged for benefit payments.

       Each Federal agency is required by the Federal Employees’ Compensation Act
       to include in their annual budget estimate a request for an appropriation in the
       amount equal to the agency cost. Agencies not receiving an appropriation are
       required to pay agency costs from funds directly under their control. In addition,
       certain corporations and instrumentalities are assessed under the Federal
       Employees' Compensation Act for a fair share of the costs of administering
       disability claims filed by their employees. The fair share costs are included in the
       calculation to determine the net intra-governmental accounts receivable.

4.     Benefit Expense
       Benefit expense for the year ended September 30, 2009, was comprised of the
       following (dollars in thousands):

                Benefits paid for compensation              $1,857,809
                Benefits paid for medical benefits             859,100
                Change in accrued benefits                      13,065
                Change in actuarial liability                 (635,930)

                   Total benefit expense                    $2,094,044




16                                                            Prepared by KPMG LLP, for the
                                        U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-10-001-04-431
                                                                Special Report Relating to the
                                      Federal Employees’ Compensation Act Special Benefit Fund



                           KPMG LLP
                           2001 M Street, NW
                           Washington, DC 20036




                                              SECTION 2A 

                           Independent Accountants’ Report 

                         on Applying Agreed-Upon Procedures


Shelby Hallmark, Acting Assistant Secretary 

Employment Standards Administration, U.S. Department of Labor 

Government Accountability Office, Office of Management and Budget, 

and Agencies Specified in Section 2B of this Report: 



We have performed the procedures described in Section 2C, Agreed-Upon Procedures

and Results, which were agreed to by the U.S. Department of Labor, U.S. Government 

Accountability Office, Office of Management and Budget, and the Agencies Specified in 

Section 2B of this Report, solely to assist you and such agencies with respect to the 

accompanying Schedule of Actuarial Liability by Agency and Net Intra-Governmental 

Accounts Receivable by Agency as of September 30, 2009, and Benefit Expense by 

Agency for the year ended September 30, 2009, of the U.S. Department of Labor

Federal Employees’ Compensation Act Special Benefit Fund (the Schedule). The U.S. 

Department of Labor is responsible for the Schedule (Section 2B). 

This agreed-upon procedures engagement was conducted in accordance with 

attestation standards established by the American Institute of Certified Public 

Accountants and with Government Auditing Standards, issued by the Comptroller 

General of the United States. 

The sufficiency of these procedures is solely the responsibility of the parties specified in

this report. Consequently, we make no representation regarding the sufficiency of the 

procedures described in Section 2C either for the purpose for which this report has 

been requested or for any other purpose. Our agreed-upon procedures and results are 

presented in Section 2C of this report. 

We were not engaged to, and did not conduct an examination of the Schedule of

Actuarial Liability by Agency, Net Intra-Governmental Accounts Receivable by Agency,

and Benefit Expense by Agency, the objective of which would be the expression of an 

opinion on the Schedule or a part thereof. Accordingly, we do not express such an

opinion. Had we performed additional procedures, other matters might have come to 

our attention that would have been reported to you. 


                                    KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                    member firm of KPMG International, a Swiss cooperative.



Prepared by KPMG LLP, for the                                                                     17
U.S. Department of Labor—Office of Inspector General
Report Number: 22-10-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund




This report is intended solely for the information and use of the U.S. Department of
Labor, the U.S. Government Accountability Office, Office of Management and Budget,
and those Federal agencies with responsibility for the FECA program, and is not
intended to be and should not be used by anyone other than these specified parties.




October 29, 2009




18                                                            Prepared by KPMG LLP, for the
                                        U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-10-001-04-431
                                                               Special Report Relating to the
                                     Federal Employees’ Compensation Act Special Benefit Fund

                                         SECTION 2B
                            U.S. Department of Labor
                      Employment Standards Administration
            Federal Employees’ Compensation Act Special Benefit Fund
                       Schedule of Actuarial Liability by Agency

                             As of September 30, 2009 


                                       (dollars in thousands)

                                                                              Actuarial
 AGENCY                                                                       Liability
 Agency for International Development                                     $     26,885
 Environmental Protection Agency                                                44,122
 General Services Administration                                               135,953
 National Aeronautics and Space Administration                                  56,912
 National Science Foundation                                                      1,319
 Nuclear Regulatory Commission                                                    7,628
 Office of Personnel Management                                                 21,695
 U.S. Postal Service                                                          9,507,251
 Small Business Administration                                                  29,640
 Social Security Administration                                                310,636
 Tennessee Valley Authority                                                    505,491
 U. S. Department of Agriculture                                               845,995
 U. S. Department of the Air Force                                            1,286,935
 U. S. Department of the Army                                                 1,790,270
 U. S. Department of Commerce                                                  171,187
 U. S. Department of Defense – other                                           815,854
 U. S. Department of Education                                                  16,199
 U. S. Department of Energy                                                     95,897
 U. S. Department of Health and Human Services                                 253,312
 U. S. Department of Homeland Security                                        1,826,221
 U. S. Department of Housing and Urban Development                              69,058
                                                                                  (continued)

Prepared by KPMG LLP, for the                                                             19
U.S. Department of Labor—Office of Inspector General
Report Number: 22-10-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                                         SECTION 2B
                                  U.S. Department of Labor
                            Employment Standards Administration
                  Federal Employees’ Compensation Act Special Benefit Fund
                                  Schedule of Actuarial Liability by Agency
                                        As of September 30, 2009

                                                      (dollars in thousands)


                                                                                                           Actuarial
 AGENCY                                                                                                    Liability
 U. S. Department of the Interior                                                                          $    697,210
 U. S. Department of Justice                                                                                   1,233,899
 U. S. Department of Labor                                                                                      216,793
 U. S. Department of the Navy                                                                                  2,425,587
 U. S. Department of State                                                                                       71,621
 U. S. Department of Transportation                                                                             970,738
 U. S. Department of the Treasury                                                                               525,430
 U. S. Department of Veterans Affairs                                                                          1,734,929
 Other agencies1                                                                                               1,259,037
 Total - all agencies                                                                                     $ 26,953,704




1 Non-billable and other agencies for which ESA has not individually calculated an actuarial liability.


20                                                                                 Prepared by KPMG LLP, for the
                                                             U.S. Department of Labor—Office of Inspector General
                                                                                 Report Number: 22-10-001-04-431
                                                                                          Special Report Relating to the
                                                                Federal Employees’ Compensation Act Special Benefit Fund

                                                                      SECTION 2B
                                      U.S. Department of Labor
                                Employment Standards Administration
                      Federal Employees’ Compensation Act Special Benefit Fund
                                              Schedule of Net Intra-Governmental 

                                               Accounts Receivable by Agency

                                                  As of September 30, 2009 

                                                                 (dollars in thousands)

                                                                                                       Amounts                         Net Intra-
                                                                               Amounts                 Expended          Credits     Governmental
                                                                               Billed Not               Not Yet         Due from       Accounts
AGENCY                                                                        Yet Paid (1)             Billed (2)       Public (3)   Receivable (4)
Agency for International Development                                                 $ 6,635                  $ 1,129      $ (35)          $ 7,729
Environmental Protection Agency                                                          8,801                  1,308         (41)           10,068
General Services Administration                                                        28,960                   4,615       (144)            33,431
National Aeronautics and Space
Administration                                                                         13,066                   1,908         (60)           14,914
National Science Foundation                                                                 263                   48           (2)               309
Nuclear Regulatory Commission                                                            1,498                   234           (7)              1,725
Office of Personnel Management                                                           4,082                   819          (26)              4,875
United States Postal Service                                                      1,110,654                   326,897    (10,233)         1,427,318
Small Business Administration                                                            5,074                   793          (25)              5,842
Social Security Administration                                                         51,493                   8,528       (267)            59,754
Tennessee Valley Authority                                                             65,288                  17,057       (534)            81,811
U. S. Department of Agriculture                                                      146,440                   23,542       (737)          169,245
U. S. Department of the Air Force                                                    262,253                   41,779      (1,308)         302,724
U. S. Department of the Army                                                         281,671                   43,608      (1,365)         323,914
U. S. Department of Commerce                                                           30,484                   5,954       (186)            36,252
U. S. Department of Defense – other                                                  179,827                   32,608      (1,021)         211,414
U. S. Department of Education                                                            2,999                   451          (14)              3,436
U. S. Department of Energy                                                             16,406                   3,024         (95)           19,335

                                                                                                                                 (continued)
 1 Amount billed through June 30, 2009 (including prior years) but not yet paid as of September 30, 2009. 

 2 Amounts paid and accrued but not yet billed for the period July 1, 2009 through September 30, 2009. 

 3 Allocation of credits due from the public through September 30, 2009. 

 4 Total amount due to the fund for each agency as of September 30, 2009. 





 Prepared by KPMG LLP, for the                                                                                                             21
 U.S. Department of Labor—Office of Inspector General
 Report Number: 22-10-001-04-431
  Special Report Relating to the
  Federal Employees’ Compensation Act Special Benefit Fund

                                                                          SECTION 2B
                                       U.S. Department of Labor
                                 Employment Standards Administration
                       Federal Employees’ Compensation Act Special Benefit Fund
                                               Schedule of Net Intra-Governmental 

                                                Accounts Receivable by Agency

                                                   As of September 30, 2009 


                                                                  (dollars in thousands)
                                                                                                    Amounts                           Net Intra-
                                                                            Amounts                 Expended            Credits     Governmental
                                                                            Billed Not               Not Yet           Due from       Accounts
AGENCY                                                                     Yet Paid (1)             Billed (2)         Public (3)   Receivable (4)
U. S. Department of Health and Human
Services                                                                        $ 52,105                 $ 8,338         $ (261)         $ 60,182
U. S. Department of Homeland Security                                             325,491                   48,673        (1,524)         372,640
U. S. Department of Housing and Urban
Development                                                                         15,188                     2,390         (75)          17,503
U. S. Department of the Interior                                                  119,207                   19,067          (597)         137,677
U. S. Department of Justice                                                       205,317                   31,942        (1,000)         236,259
U. S. Department of Labor                                                           44,929                     8,712        (273)          53,368
U. S. Department of the Navy                                                      482,281                   75,968        (2,378)         555,871
U. S. Department of State                                                           16,001                     2,343         (73)          18,271
U. S. Department of Transportation                                                197,192                   33,008        (1,033)         229,167
U. S. Department of the Treasury                                                  106,737                   16,891          (529)         123,099
U. S. Department of Veterans Affairs                                              353,994                   56,692        (1,775)         408,911
Other agencies                                                                      92,129                  17,531          (549)         109,111
Total - all agencies                                                       $ 4,226,465               $ 835,857         $ (26,167)     $ 5,036,155


  1 Amount billed through June 30, 2009 (including prior years) but not yet paid as of September 30, 2009. 

  2 Amounts paid and accrued but not yet billed for the period July 1, 2009 through September 30, 2009. 

  3 Allocation of credits due from public through September 30, 2009. 

  4 Total amount due to the fund for each agency as of September 30, 2009. 





  22                                                                                             Prepared by KPMG LLP, for the
                                                                           U.S. Department of Labor—Office of Inspector General
                                                                                               Report Number: 22-10-001-04-431
                                                                Special Report Relating to the
                                      Federal Employees’ Compensation Act Special Benefit Fund

                                         SECTION 2B
                            U.S. Department of Labor
                      Employment Standards Administration
            Federal Employees’ Compensation Act Special Benefit Fund
                        Schedule of Benefit Expense by Agency

                              As of September 30, 2009 


                                       (dollars in thousands)

                                                      Benefits Paid
                                                      and Change          Change in           Total
                                                       in Accrued         Actuarial          Benefit
AGENCY                                                   Benefits          Liability        Expense

Agency for International Development                            $ 3,440       $ 3,748           $ 7,188
Environmental Protection Agency                                   4,343         (493)                 3,850
General Services Administration                                  13,970      (27,873)           (13,903)
National Aeronautics and Space Administration                     6,044       (7,065)            (1,021)
National Science Foundation                                        137            121                  258
Nuclear Regulatory Commission                                      745            569                 1,314
Office of Personnel Management                                    2,061         (444)                 1,617
United States Postal Service                               1,065,726         (36,548)          1,029,178
Small Business Administration                                     2,330         2,579                 4,909
Social Security Administration                                   26,008        12,704            38,712
Tennessee Valley Authority                                       53,687      (27,008)            26,679
U. S. Department of Agriculture                                  73,820        13,982            87,802
U. S. Department of the Air Force                               131,630     (108,514)            23,116
U. S. Department of the Army                                    180,254     (189,987)            (9,733)
U. S. Department of Commerce                                     17,753         1,607            19,360
U. S. Department of Defense – other                              62,697        14,971            77,668
U. S. Department of Education                                     1,413         (355)                 1,058
U. S. Department of Energy                                        9,344       (8,837)                  507
U. S. Department of Health and Human Services                    26,789      (29,205)            (2,416)
U.S. Department of Homeland Security                            164,693        30,870           195,563
                                                                                        (continued)
Prepared by KPMG LLP, for the                                                                   23
U.S. Department of Labor—Office of Inspector General
Report Number: 22-10-001-04-431
       Special Report Relating to the
       Federal Employees’ Compensation Act Special Benefit Fund

                                                                SECTION 2B
                                         U.S. Department of Labor
                                   Employment Standards Administration
                         Federal Employees’ Compensation Act Special Benefit Fund
                                          Schedule of Benefit Expense by Agency
                                                As of September 30, 2009

                                                             (dollars in thousands)

                                                                                    Benefits Paid
                                                                                    and Change               Change in          Total
                                                                                     in Accrued              Actuarial         Benefit
AGENCY                                                                                 Benefits               Liability       Expense
U. S. Department of Housing and Urban Development                                             $ 7,423            $ (15,471)     $ (8,048)
U. S. Department of the Interior                                                               59,605                4,821        64,426
U. S. Department of Justice                                                                   104,886               97,329       202,215
U. S. Department of Labor                                                                      20,411              (18,590)         1,821
U. S. Department of the Navy                                                                  238,575             (260,324)      (21,749)
U. S. Department of State                                                                        7,622               2,729        10,351
U. S. Department of Transportation                                                            100,077              (14,598)       85,479
U. S. Department of the Treasury                                                               53,429              (67,766)      (14,337)
U. S. Department of Veterans Affairs                                                          180,401             (170,543)         9,858
Other agencies (1)                                                                            110,661              161,661       272,322
Total - all agencies                                                                   $ 2,729,974           $ (635,930)      $ 2,094,044


       1 Non-billable and other agencies for which ESA has not individually calculated an actuarial liability.




       24                                                                                Prepared by KPMG LLP, for the
                                                                   U.S. Department of Labor—Office of Inspector General
                                                                                       Report Number: 22-10-001-04-431
                                                                      Special Report Relating to the
                                            Federal Employees’ Compensation Act Special Benefit Fund

                                                SECTION 2C 


                                Agreed-Upon Procedures & Results 


ACTUARIAL LIABILITY

Procedures and Results

    Agreed-Upon Procedures Performed                      Results of Procedures

    1) Calculated the actuarial liability as of The actuarial liability as of September 30,
       September 30, 2009, using KPMG’s 2009, calculated using KPMG’s loss
       loss development actuarial model1.       development       actuarial     model    is
                                                approximately $26.7 billion.

    2) Recalculated the actuarial liability as The actuarial liability as of September 30,
       of September 30, 2009, using DOL’s 2009, recalculated using DOL’s loss
       loss development actuarial model2.      development actuarial model, is $1.2
                                               million less than the actuarial liability
                                               calculated by DOL.

    3) Compared DOL’s actuarial liability as              DOL’s actuarial liability as of September
       of September 30, 2009, using DOL’s                 30, 2009, using DOL’s loss development
       loss development actuarial model to                actuarial model is approximately $300
       KPMG’s calculation of the actuarial                million (1.1%) greater than KPMG’s
       liability as of September 30, 2009,                calculation of the actuarial liability as of
       using KPMG’s loss development                      September 30, 2009, using KPMG’s loss
       actuarial model.                                   development actuarial model.




1
  KPMG’s model uses actual data to evaluate trends and project future payments. KPMG’s model also supplements
its methodology with the number of workers related to each agency in injury years 2004 through 2009.
2
  The DOL model uses a Paid Loss Development Method by agency, by defined agency groups, and in total using
inflation rate assumptions on both past and future indemnity and medical benefits to adjust past data and project
forward.
Prepared by KPMG LLP, for the                                                                                   25
U.S. Department of Labor—Office of Inspector General
Report Number: 22-10-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                      SECTION 2C 


                         Agreed-Upon Procedures & Results 


ACTUARIAL LIABILITY

Procedures and Results


 Agreed-Upon Procedures Performed               Results of Procedures

 4) Compared DOL’s actuarial liability as       DOL’s actuarial liability as of September
    of September 30, 2009, using DOL’s          30, 2009, using DOL’s loss development
    loss development actuarial model to         actuarial model is $1.2 million greater than
    KPMG’s calculation of the actuarial         KPMG’s calculation of the actuarial liability
    liability as of September 30, 2009,         as of September 30, 2009, using DOL’s
    using DOL’s loss development                loss development actuarial model. We
    actuarial    model.     We     Identified   confirm that DOL corrected this difference
    differences noted and confirmed             in DOL’s final loss development model and
    whether or not DOL corrected the            that the actuarial liability reported in
    differences identified in DOL’s final       Section 2B of this report reflects the
    loss development actuarial model and        corrected actuarial liability.
    that the actuarial liability reported in
    Section 2B of this report reflects the
    corrected actuarial liability.


 5) Compared the interest rate and No exceptions were found as a result of
    inflation     (COLA,      CPI-Med) applying this procedure.
    assumptions used by the DOL loss
    development actuarial model as of
    September 30, 2009, to the interest
    rate and inflation (COLA, CPI-Med)
    assumptions used by KPMG’s loss
    development model as of September
    30, 2009.




26                                                             Prepared by KPMG LLP, for the
                                         U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 22-10-001-04-431
                                                              Special Report Relating to the
                                    Federal Employees’ Compensation Act Special Benefit Fund

                                       SECTION 2C 


                          Agreed-Upon Procedures & Results 


ACTUARIAL LIABILITY

Procedures and Results


 Agreed-Upon Procedures Performed               Results of Procedures

 6) Compared the average interest rate          The average interest rate used by the DOL
    and average inflation rate (COLA and        loss   development      actuarial   model
    CPI-Med) assumptions used by the            decreased from 4.73% to 4.70% from
    DOL loss development actuarial              September 30, 2008 to September 30,
    model as of September 30, 2008, to          2009.
    the average interest rate and average
    inflation rate (COLA and CPI-Med)           The average COLA rate used by the DOL
    assumptions used by the DOL loss            loss   development   actuarial  model
    development actuarial model as of           decreased from 2.48% to 1.92% from
    September 30, 2009.                         September 30, 2008 to September 30,
                                                2009.

                                                The average CPI-med rate used by the
                                                DOL loss development actuarial model
                                                decreased from 3.93% to 3.68% from
                                                September 30, 2008 to September 30,
                                                2009.




Prepared by KPMG LLP, for the                                                            27
U.S. Department of Labor—Office of Inspector General
Report Number: 22-10-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                      SECTION 2C 


                         Agreed-Upon Procedures & Results 


ACTUARIAL LIABILITY

Procedures and Results


 Agreed-Upon Procedures Performed              Results of Procedures

 7) Calculated the percentage change in        The actuarial liability decreased in the
    the actuarial liability by agency and in   aggregate from approximately $27.6 billion
    the aggregate from September 30,           as   of   September      30,    2008,    to
    2008, to September 30, 2009, based         approximately $27.0 billion (2.30%) as of
    on the DOL loss development                September 30, 2009.
    actuarial model, identified agencies
    whose actuarial liability changed by       The following agencies had a change in
    more than 10 percent during fiscal         actuarial liability from September 30, 2008,
    year 2009, and for such agencies,          to September 30, 2009, of greater than
    calculated the percentage change in        10%:
    benefit payments for the year ended
    September 30, 2008, to September                       Percentage       Percentage
    30, 2009.
                                                            change in        change in
                                                Agency
                                                            actuarial         benefit
                                                             liability       payments
                                                AID           16.2%             1.2%
                                                GSA          (17.0)%           (5.8)%
                                                NASA         (11.0)%          (11.9)%
                                                NSF           10.1%             4.9%
                                                HHS          (10.3)%            3.7%
                                                HUD          (18.3)%           (2.1)%
                                                TREAS        (11.4)%           (0.0)%




28                                                            Prepared by KPMG LLP, for the
                                        U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-10-001-04-431
                                                              Special Report Relating to the
                                    Federal Employees’ Compensation Act Special Benefit Fund

                                       SECTION 2C 


                          Agreed-Upon Procedures & Results 


ACTUARIAL LIABILITY

Procedures and Results

 Agreed-Upon Procedures Performed               Results of Procedures

 8) Compared the interest rate (used for No exceptions were found as a result of
    discounting the future liability to the applying this procedure.
    present value) and inflation rates
    (COLA and CPI-Med) used by the
    DOL loss development actuarial
    model as of September 30, 2009, to
    the interest rate (used for discounting
    the future liability to the present value)
    and inflation rates (COLA and CPI-
    Med) published by OMB in the Fiscal
    Year 2009 Mid-Session Review.


 9) Compared the actuarial liability, by No exceptions were found as a result of
    agency, as of September 30, 2009, as applying this procedure.
    reported in the Memorandum to the
    CFOs of Executive Departments
    issued by DOL’s Chief Financial
    Officer, to the liability calculated by
    the DOL loss development model and
    reported on the Projected Liability
    Reports as of September 30, 2009.


 10) Compared both the fiscal year 2009 No exceptions were found as a result of
     benefit payments by agency and the applying this procedure.
     aggregate fiscal years 2004-2009
     benefit payments, used by the DOL
     loss development actuarial model,
     with the fiscal year 2009 benefit
     payments by agency and the
     aggregate fiscal years 2004-2009
     benefit payments as reported in the
     Summary Chargeback Billing Report.


Prepared by KPMG LLP, for the                                                             29
U.S. Department of Labor—Office of Inspector General
Report Number: 22-10-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                      SECTION 2C 


                         Agreed-Upon Procedures & Results 


ACTUARIAL LIABILITY

Procedures and Results


 Agreed-Upon Procedures Performed             Results of Procedures

 11) Compared the agency groupings used       We found that the agency groupings used
     in the DOL loss development actuarial    in the DOL loss development actuarial
     model as of September 30, 2009, with     model as of September 30, 2009,
     the agency groupings used in the         compared to September 30, 2008, to be
     DOL loss development actuarial           the same, except for DOT, DOS, TREAS,
     model as of September 30, 2008.          and TVA.


 12) Compared the fiscal year 2009 benefit No agencies were identified as a result of
     payments calculated by the 2008 DOL applying this procedure.
     loss development actuarial model to
     the actual fiscal year 2009 benefit
     payments from the DOL Summary
     Chargeback Billing Report and
     identified agencies where the DOL
     loss development actuarial model
     calculated benefit payments varied by
     more than 20 percent and $2 million
     from the actual benefit payments
     made during fiscal year 2009 from the
     DOL Summary Chargeback Billing
     Report.




30                                                            Prepared by KPMG LLP, for the
                                        U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-10-001-04-431
                                                               Special Report Relating to the
                                     Federal Employees’ Compensation Act Special Benefit Fund

                                        SECTION 2C 


                           Agreed-Upon Procedures & Results 


ACTUARIAL LIABILITY

Procedures and Results


    Agreed-Upon Procedures Performed             Results of Procedures

    13) Compared the net effective rates         The net effective rate (interest minus
        (interest minus inflation rates) for     inflation rate1) for compensation of 2.93%
        compensation and medical used in the     used in the DOL loss development
        Postal Service, OPM, SSA, Energy         actuarial model as of September 30, 2009,
        Employees’       Occupation    Illness   is greater than the net effective rate used
        Compensation Program, and the            for compensation in the Postal Service,
        Black Lung Disability Trust Fund loss    OPM,        SSA,       Energy   Employees’
        development actuarial models as of       Occupation         Illness    Compensation
        September 30, 2009, to the net           Program, and the Black Lung Disability
        effective rates for compensation and     Trust Fund loss development actuarial
        medical used by the DOL loss             models as of September 30, 2009, as
        development actuarial model as of        follows:
        September 30, 2009.                          - Postal Service (1.91%)
                                                     - OPM (2.75%)
                                                     - SSA (2.81%)
                                                     - Energy Employees’ Occupation
                                                         Illness Compensation Program (no
                                                         compensation rates included in
                                                         models)
                                                     - Black Lung Disability Trust Fund
                                                         (1.55%)

                                                 The net effective rate (interest rate minus
                                                 inflation rate2) for medical of 1.03% used in
                                                 the DOL loss development actuarial model
                                                 as of September 30, 2009, is greater than
                                                 the net effective rate for medical used in
                                                 the Energy Employees’ Occupation Illness
                                                 Compensation Program (-1.29%) loss
                                                 development actuarial model as of
                                                 September 30, 2009.


1
 COLA
2
 CPI-Med
Prepared by KPMG LLP, for the                                                              31
U.S. Department of Labor—Office of Inspector General
Report Number: 22-10-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                      SECTION 2C 


                         Agreed-Upon Procedures & Results 


ACTUARIAL LIABILITY

Procedures and Results


    Agreed-Upon Procedures Performed          Results of Procedures

                                              The net effective rate (interest rate minus
                                              inflation rate2) for medical of 1.03% used in
                                              the DOL loss development actuarial model
                                              as of September 30, 2009, is less than the
                                              net effective rate for medical used in the
                                              Postal Service, and the Black Lung
                                              Disability Trust Fund loss development
                                              actuarial models as of September 30,
                                              2009, as follows:

                                                  -   Postal Service (0.3%)
                                                  -   Black Lung Disability Trust Fund
                                                      (1.57%).

                                              We did not complete this procedure for net
                                              effective rates for medical used by OPM
                                              and SSA because the rates were not
                                              provided.




2
 CPI-Med
32                                                            Prepared by KPMG LLP, for the
                                        U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-10-001-04-431
                                                                 Special Report Relating to the
                                       Federal Employees’ Compensation Act Special Benefit Fund

                                          SECTION 2C 


                            Agreed-Upon Procedures & Results 


NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE

Procedures and Results

Agreed-Upon Procedures Performed                   Results of Procedures
14) Confirmed      accounts     receivable         Confirmations were received from all
    balances due as of June 30, 2009,              agencies that were sent a confirmation
    from the Liability for Current Federal         request. The confirmed accounts receivable
    Employees’ Compensation Act Benefits           balances as of June 30, 2009, agreed with
    prepared by the DOL-OCFO and                   the accounts receivable balances as of June
    posted on the DOL website3 for all CFO         30, 2009, posted on the DOL website except
    Act agencies (except DOL) and the              for the following agency:
    U.S. Postal Service and compared
    confirmed     accounts      receivable                          Website   Confirmed
                                                     Agency                                  Difference
                                                                    Amount     Amount
    balances as of June 30, 2009, to the
    amounts posted on the DOL website.               DOD-      $116,994,820   $116,952,114     $42,706
                                                     Army


15) Compared the net intra-governmental            The variances between the net intra-
    accounts receivable balances by                governmental accounts receivable balances
    Federal agency as reported by the              by Federal agency as reported by the OCFO
    OCFO on the Liability for Current              on the Liability for Current Federal
    Federal Employees’ Compensation Act            Employees’ Compensation Act Benefits report
    Benefits report as of September 30,            as of September 30, 2008 and the net intra-
    2008, to the net intra-governmental            governmental accounts receivable balances
    accounts receivable balances by                by Federal agency reported by the OCFO on
    Federal agency as reported by the              the Liability for Current Federal Employees’
    OCFO on the Liability for Current              Compensation Act Benefits as of September
    Federal Employees’ Compensation Act            30, 2009, are identified in Exhibit A.
    Benefits report as of September 30,
    2009.




3
 http://www.dol.gov/ocfo/media/reports/FECA_liability_2009_3q.pdf
Prepared by KPMG LLP, for the                                                                     33
U.S. Department of Labor—Office of Inspector General
Report Number: 22-10-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                      SECTION 2C 


                         Agreed-Upon Procedures & Results 


NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE

Procedures and Results


Agreed-Upon Procedures Performed              Results of Procedures
16) Recalculated the September 30, 2009, No exceptions were found as a result of
    net     intra-governmental       accounts applying this procedure.
    receivable balances for each agency
    by adding the fiscal year 2009 bills sent
    to Federal agencies to the September
    30, 2008 ending balance from prior
    year’s special report, less 4th quarter of
    fiscal year 2008 unbilled accounts
    receivable from the detailed general
    ledger plus the 4th quarter of fiscal year
    2009 unbilled accounts receivable from
    the detailed general ledger less the
    cash collections as reported by the
    OCFO on the SF-224s, and less the
    2009 other credits due from the public,
    net, reported in the detailed general
    ledger.

     Compared the recalculated September
     30, 2009, net intra-governmental
     accounts receivable balances for each
     agency to the balance reported by the
     OCFO in the Liability for Current
     Federal Employees’ Compensation Act
     Benefits report as of September 30,
     2009 and identified differences over 1
     percent.




34                                                            Prepared by KPMG LLP, for the
                                        U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-10-001-04-431
                                                              Special Report Relating to the
                                    Federal Employees’ Compensation Act Special Benefit Fund

                                       SECTION 2C 


                          Agreed-Upon Procedures & Results 


NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE

Procedures and Results

Agreed-Upon Procedures Performed                Results of Procedures

17) Compared the Summary Chargeback             Variances       between     the    Summary
    Billing Report for the period, July 1,      Chargeback Billing Report for the period
    2008, through June 30, 2009, to the         July 1, 2008 through June 30, 2009, and
    bills sent to Federal entities dated July   the bills sent to the Federal agencies dated
    31, 2009.                                   July 31, 2009 were noted for the following
                                                agencies:

                                                                Bill    Report
                                                    Agency     Amount   Amount     Difference
                                                 Dept of
                                                 Interior-
                                                 Enrollees         $-   $ 34,420   ($34,420)
                                                 Dept of
                                                 Agriculture
                                                 –Enrollees         -    17,521     (17,521)




18) Compared the Allocation of Accrued No exceptions were found as a result of
    Benefits as of September 30, 2009, applying this procedure.
    recorded on the OCFO Liability for
    Current     Federal       Employees’
    Compensation Act Benefits report as
    of September 30, 2009, to the accrual
    calculation worksheet prepared by
    DOL.

19) Compared the fiscal year 2009 4th           The FY 2009 4th quarter accounts
    quarter accounts receivable prepared        receivable estimate prepared by the OCFO
    by the OCFO and reported on the 4th         was less than the actual payments
    Quarter FECA Liability Report to the        reported on the Summary Chargeback
    fiscal year 2009 4th quarter benefit        Billing Report by $13 thousand.
    payments reported on the Summary
    Chargeback Billing Report.


Prepared by KPMG LLP, for the                                                                  35
U.S. Department of Labor—Office of Inspector General
Report Number: 22-10-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund
                                                                                EXHIBIT A
                                                                  Results of Procedure 15

                                      SECTION 2C

                         Agreed-Upon Procedures & Results

NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE

Procedures and Results


                                   (dollars in thousands)
                                                            Net Intra-Governmental 

                                                             Accounts Receivable 

                                                                September 30, 

                       Agency                                2009         2008     Change
Agency for International Development                          $ 7,729     $ 7,617     $ 112
Environmental Protection Agency                                10,068       9,914       154
General Services Administration                                33,431      34,571 (1,140)
National Aeronautics and Space Administration                  14,914      15,763     (849)
National Science Foundation                                       309         299         10
Nuclear Regulatory Commission                                   1,725       1,710         15
Office of Personnel Management                                  4,875       4,589       286
U.S. Postal Service                                         1,427,318     272,172 1,155,146
Small Business Administration                                   5,842       6,005     (163)
Social Security Administration                                 59,754      57,758     1,996
Tennessee Valley Authority                                     81,811      25,294    56,517
U.S. Department of Agriculture                                169,245     166,085     3,160
U.S. Department of the Air Force                              302,724     301,212     1,512
U.S. Department of the Army                                   323,914     325,014 (1,100)
U.S. Department of Commerce                                    36,252      34,167     2,085
U.S. Department of Defense - other                            211,414     207,618     3,796
U.S. Department of Education                                    3,436       3,477       (41)
U.S. Department of Energy                                      19,335      19,807     (472)
U.S. Department of Health and Human Services                   60,182      58,003     2,179
U.S. Department of Homeland Security                          372,640     366,163     6,477
                                                                                 (continued)
36                                                            Prepared by KPMG LLP, for the
                                        U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-10-001-04-431
                                                              Special Report Relating to the
                                    Federal Employees’ Compensation Act Special Benefit Fund
                                                                                  EXHIBIT A
                                                                    Results of Procedure 15

                                       SECTION 2C

                          Agreed-Upon Procedures & Results

NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE

Procedures and Results

                                    (dollars in thousands)

                                                             Net Intra-Governmental 

                                                              Accounts Receivable 

                                                                 September 30,

                      Agency                                  2009        2008        Change
U.S. Department of Housing and Urban Development             $ 17,503    $ 18,314      $ (811)
U.S. Department of Interior                                   137,677     138,149        (472)
U.S. Department of Justice                                    236,259    226,630         9,629
U.S. Department of Labor                                       53,368      52,735          633
U.S. Department of Navy                                       555,871     561,297      (5,426)
U.S. Department of State                                       18,271      17,614          657
U.S. Department of Transportation                             229,167    222,616         6,551
U.S. Department of the Treasury                               123,099    122,052         1,047
U.S. Department of Veterans Affairs                           408,911    394,555       14,356




Prepared by KPMG LLP, for the                                                             37
U.S. Department of Labor—Office of Inspector General
Report Number: 22-10-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund




                THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK 





38                                                            Prepared by KPMG LLP, for the
                                        U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-10-001-04-431
                                                              Special Report Relating to the
                                    Federal Employees’ Compensation Act Special Benefit Fund

                                       SECTION 2C 


                          Agreed-Upon Procedures & Results 


BENEFIT EXPENSE

Procedures and Results

 Agreed-Upon Procedures Performed             Results of Procedures

 20) Compared the fiscal year 2009 No exceptions were found as a result of
     benefit payments recorded in the applying this procedure.
     Integrated    Federal   Employees
     Compensation System (iFECS) and
     Central    Bill  Process     (CBP)
     databases as of March 31, 2009,
     and September 30, 2009 to the
     fiscal year 2009 benefit payments
     reported in the U.S. Department of
     the Treasury’s SF-224 as of March
     31, 2009, and September 30, 2009.

21) Performed the following procedures No exceptions were found as a result of
    over the reconciliation prepared by applying this procedure.
    the      Office     of     Workers’
    Compensation Programs between
    the benefit payments reported in the
    Chargeback Billings Reports for the
    fiscal year ended September 30,
    2009, and the benefit payments
    reported in the iFECS and CBP
    databases for the fiscal year ended
    September 30, 2009:
    A) Compared the benefit expenses
       in the Chargeback Billings
       Reports       reported    in    the
       reconciliation to the actual
       Chargeback Billings Reports.
    B) Compared the Benefit payments
       from iFECS and the CBP
       databases reported in the
       reconciliation to the actual iFECS
       and the CBP databases.
    C) Identified differences above 1%.




Prepared by KPMG LLP, for the                                                             39
U.S. Department of Labor—Office of Inspector General
Report Number: 22-10-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                      SECTION 2C 


                         Agreed-Upon Procedures & Results 


BENEFIT EXPENSE

Procedures and Results

 Agreed-Upon Procedures Performed           Results of Procedures
                                            The following agencies had increases
 22) Compared        compensation    and
                                            (decreases) over 10% in compensation and
     medical bill payments by agency for    medical bill payments for the year ended
     the fiscal year ended September 30,    September 30, 2009, compared to the year
     2009,      from     the    Summary     ended September 30, 2008:
     Chargeback Billing Report prepared
     by DOL, to the compensation and                       Agency   Variance
     medical bill payments by agency                •       NASA      (11.9%)
     made for the fiscal year ended                 •       COM       11%
     September 30, 2008, from the
     Summary Chargeback Billing Report      Variances for the remaining agencies were
     prepared by DOL, and identified any    10% or less.
     variances over 10 percent.


 23) For a selection of 129 compensation No exceptions were found as a result of
     payments      for    initially  eligible applying this procedure.
     claimants, compared beneficiary
     name, beneficiary social security
     number, date of birth, benefit
     amount, payment date, and other
     unique identifiers from the applicable
     Forms CA-1 Federal Notice of
     Traumatic Injury and Claim for
     Continuation of Pay/Compensation,
     and CA-2 Notice of Occupational
     Disease        and        Claim      for
     Compensation to the beneficiary
     name, beneficiary social security
     number, date of birth, benefit
     amount, payment date, and other
     unique     identifiers      in  iFECS
     database.



40                                                            Prepared by KPMG LLP, for the
                                        U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-10-001-04-431
                                                              Special Report Relating to the
                                    Federal Employees’ Compensation Act Special Benefit Fund

                                       SECTION 2C 


                          Agreed-Upon Procedures & Results 


BENEFIT EXPENSE

Procedures and Results

 Agreed-Upon Procedures Performed                      Results of Procedures

 24) For a selection of 129 compensation               The benefit amount in the CA-1032
     payments for continuing eligibility and file      Request for information on Earnings,
     maintenance, compared beneficiary name,           Dual Benefits, Dependents was
     beneficiary social security number, date of       $1,481 less than the benefit amount
     birth, benefit amount, payment date, and          in the iFECS database for 3 of the
     other unique identifiers from applicable          129 compensation payments.
     Forms CA-7 Claim for Compensation, and
     CA-1032 Request for information on
     Earnings, Dual Benefits, Dependents and
     Third Party Settlements to the beneficiary
     name, beneficiary social security number,
     date of birth, benefit amount, payment date,
     and other unique identifiers in iFECS
     database.

 25) For a selection of 129 medical payments, No exceptions were found as a
     compared the vendor name, date, and result of applying this procedure.
     other unique identifiers from the medical
     bill and payment amount on the summary
     sheet of the Achieve system to the vendor
     name, payment amount, date, and other
     unique identifiers in CBP database.
 .

 26) Calculated the change in the actuarial            The actuarial liability decreased by
     liability reported on the September 30,           approximately $636 million on the
     2009,      and    September    30,   2008,        compilation reports prepared by
     compilation reports prepared by DOL.              DOL from September 30, 2008, to
                                                       September 30, 2009.




Prepared by KPMG LLP, for the                                                            41
U.S. Department of Labor—Office of Inspector General
Report Number: 22-10-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                      SECTION 2C 


                         Agreed-Upon Procedures & Results 


BENEFIT EXPENSE

Procedures and Results

 Agreed-Upon Procedures Performed              Results of Procedures
 27) Calculated the fiscal year 2009           The calculated annual projected benefit
     projected benefit payments using the      payments based on the March 31, 2009
     following two step process:               iFECS and CBP databases were
     (a) Calculated the average benefit        approximately $27.6 million (1.03%) less
     payment amount per roll during the        than the actual 12 month total benefit
     period of October 1, 2008 to March        payments as of September 30, 2009,
     31, 2009, by dividing the total medical   calculated    from     the     Summary
     and compensation benefit payments         Chargeback Billing Reports.
     from the iFECS and CBP databases
     by the number of rolls in the period
     from October 1, 2008 to March 31,
     2009 from the iFECS and CBP
     databases; and
     (b) Multiplied the average benefit
     payment amount per roll determined in
     step 27 (a) above by the number of
     rolls scheduled for fiscal year 2009 in
     accordance with the FECA.

     Compared this amount to the actual
     12-month total benefit payments as of
     September 30, 2009, calculated from
     the Summary Chargeback Billing
     Reports.

 28) Compared the fiscal year 2009 4th No exceptions were found as a result of
     quarter benefit expense estimate applying this procedure.
     calculated by the OCFO as reported
     on the Liability for Current Federal
     Employees        Compensation         Act
     Benefits report to the actual fiscal year
     2009 4th quarter benefit expense
     recorded in iFECS and CBP
     databases.

42                                                            Prepared by KPMG LLP, for the
                                        U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-10-001-04-431
                                                              Special Report Relating to the
                                    Federal Employees’ Compensation Act Special Benefit Fund




Appendix 





Prepared by KPMG LLP, for the                                                             43
U.S. Department of Labor—Office of Inspector General
Report Number: 22-10-001-04-431
Special Reports Relating to the
Federal Employees’ Compensation Act Special Benefit Fund




                THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK 





44                                                               Prepared by KPMG, for the
                                        U.S. Department of Labor—Office of Inspector General
                                                                Report No: 22-10-001-04-431
                                                             Special Reports Relating to the
                                    Federal Employees’ Compensation Act Special Benefit Fund

ACRONYMS and ABBREVIATIONS
                ACS                    Affiliated Computer Services
                AODF                   All Other Defense
                AUP                    Agreed Upon Procedures
                BLS                    Bureau of Labor Statistics
                CBP                    Central Bill Processing System
                CFO                    Chief Financial Officers’ Act
                COLA                   Cost of Living Allowance
                COM                    U.S. Department of Commerce
                CPI-Med                Consumer Price Index for Medical
                DHS                    U.S. Department of Homeland Security
                DOD                    U.S. Department of Defense
                DOI                    U.S. Department of Interior
                DOJ                    U.S. Department of Justice
                DOL                    U.S. Department of Labor
                DOS                    U.S. Department of State
                DOT                    U.S. Department of Transportation
                EDU                    U.S. Department of Education
                EPA                    Environmental Protection Agency
                ESA                    Employment Standards Administration
                FECA                   Federal Employees' Compensation Act
                HUD                    Department of Housing and Urban Development
                iFECS                  Integrated Federal Employees’ Compensation
                                       System
                LBP                    Liability to Benefits Paid
                NASA                   National Aeronautics and Space Administration
                NCS                    Corp. for National and Community Service
                NRC                    Nuclear Regulatory Commission
                NSF                    National Science Foundation
                OCFO                   Office of the Chief Financial Officer
                OMB                    Office of Management and Budget
                OPC                    Office of Peace Corps
                OPM                    Office of Personnel Management
                OWCP                   Office of Workers' Compensation Programs
                SBA                    Small Business Administration
                                                                             (continued)
Prepared by KPMG, for the                                                                45
U.S. Department of Labor—Office of Inspector General
Report No: 22-10-001-04-431
Special Reports Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

ACRONYMS and ABBREVIATIONS

               SFFAS                  	Statement of Federal Financial Accounting
                                       Standards
               SMI                    	Smithsonian Institution
               SSA 	                   Social Security Administration
               USAID 	                 U.S. Agency for International Development
               USDA 	                 Department of Agriculture
               USPS 	                 U.S. Postal Service
               TREAS 	                 U.S. Department of the Treasury
               TVA 	                  Tennessee Valley Authority




46                                                                Prepared by KPMG, for the
                                        U.S. Department of Labor—Office of Inspector General
                                                                Report No: 22-10-001-04-431
